 UPS CAPITAL BUSINESS CREDIT'S 

COMPLIANCE WITH SELECTED 7(A) 

    LENDING REQUIREMENTS 




          Report Number: 8-08
       Date Issued: March 21, 2008
           U.S. Small Business Administration
           Office Inspector General               Memorandum
    To : Grady B. Hedgespeth                                           Date:   March 21 2008
                                                                                       '
         Director, Office of Financial Assistance 

         /S/ original signed 

  From : Debra S. Ritt 

         Assistant Inspector General for Auditing 


Subject:   UPS Capital Business Credit's (UPSC) Compliance with Selected 7(a) Lending
           Requirements
           Report No. 8-08

           This report presents the results of our audit of UPSC's compliance with selected
           Small Business Administration (SBA) lending requirements. We initiated the
           audit as a result of deficiencies identified by SBA personnel during their reviews
           of defaulted loans originated by UPSC. SBA guarantees portions of loans made
           by participating lenders and purchases the guarantees upon loan default. Lenders
           are required to comply with SBA ' s program regulations when originating,
           servicing, and liquidating the loans. When a loan defaults, the lender submits a
           request that SBA honor the guaranty along with relevant documentation. SBA
           reviews the documentation to evaluate the lender' s compliance. Reviews of7(a)
           loans (excluding SBA Express and Community Express loans) are centralized at
           SBA' s National Guaranty Purchase Center in Herndon, Virginia.

           The objective of the audit was to determine whether UPSC materially complied
           with SBA' s requirements for documenting: borrower equity injection, use of loan
           proceeds and qualifications for debt refinancing. We had also planned to assess
           UPSC's compliance with SBA' s requirement for reporting liquidation expenses.
           However, after initiating the audit, the Herndon Center began a review of the
           lender' s liquidation expenses. Therefore, we excluded this component from the
           scope of our audit.

           To answer the audit objective, we statistically sampled 36 of 103 loans that SBA
           purchased for $11.9 million between October 1, 2003 , and March 31 , 2007. A
           listing of the sampled loans is presented in Appendix I, and our sampling
           methodology is provided in Appendix II. The sampled loans comprise more than
           one-third of the $30 .8 million SBA paid for the 103 loans. As of March 31 , 2007,
           the outstanding SBA guaranty balance for the 36 loans had been reduced to about
                                                                                   2

$7.3 million based on recoveries from liquidation actions. We reviewed SBA' s
files for 35 of the 36 loans to determine if the required documents had been
submitted by the lender and requested documents from the lender for those items
not found in SBA's files. SBA personnel could not locate one file. Additionally,
we interviewed personnel at the Herndon Center and analyzed the results of pre­
and post-purchase reviews the Center completed on 22 of the 35 loans. There was
no evidence in the files of pre-or post purchase reviews for the remaining 13 loans.
We conducted our audit between May and November 2007 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

BACKGROUND

UPSC is a subsidiary of UPS Capital Corporation, which in turn is a subsidiary of
United Parcel Service of America, Inc. UPSC became an SBA lender in May
2003. Since fiscal year (FY) 2004, UPSC has been one of SBA' s largest lenders
in the 7(a) guaranteed loan program, and has operated as a preferred lender. As of
June 30, 2007, UPSC had 885 guaranteed loans outstanding with an SBA
guaranteed balance of $345 million. The lender' s June 30, 2007, 12-month
purchase rate for defaulted 7(a) loans was 3.7 percent-one of the highest for SBA
lenders that have $100 million or more in SEA-guaranteed loan portfolios.

RESULTS

Loans Were Purchased Without Adequate Support Showing How Loan
Proceeds Were Used

SBA Policy Notice 5000-831 and Standard Operating Procedure 50 51 2B require
lenders to document the borrower' s disbursement of loan proceeds through the
issuance ofjoint payee checks, except for working capital and cash. When joint
payee checks are not available, the lender should maintain copies of receipts,
invoices or other documentation that clearly shows that proceeds were used in
accordance with the loan authorization.

Our audit disclosed that 16, or about 44 percent, of the 36 loan files in our sample
did not have adequate supporting documentation to show how borrowers used the
loan proceeds. These loans had an outstanding balance of about $4.3 million. The
Herndon Center conducted purchase reviews for 7 of the 16 loans, but had
approved the purchases despite their deficiencies. The other nine loans were
awaiting a post-purchase review.

We attempted to obtain from the lender the appropriate supporting documentation
to show how proceeds were used for the 16 loans. The lender told us that
                                                                                      3

obtaining the requested information would be difficult as loan agents were used to
close the loans. The lender provided copies of Uniform Commercial Code (UCC)
searches for loan proceeds used to refinance prior debt for eight loans. The UCC
data showed that prior debtors had released their liens on the assets financed by
SBA loan proceeds. These documents were provided by the lender as evidence of
the use of loan proceeds. Because this evidence does not state how much the prior
debtors were paid, we could not determine whether loan proceeds associated with
the eight loans had been used appropriately. The lender also did not provide
documentation to show that proceeds were used appropriately for the remaining
eight loans.

For example, the loan authorization for a loan 1 showed that $1.5 million was to be
used to repay prior debt and $162,787 was to be used for working capital and
closing costs . The lender did not provide the required supporting documentation
for the use of the loan proceeds, but submitted a settlement sheet and closing
statement indicating that the borrower paid an origination fee of$17,000 that was
intended for a third party. Title 13 of the Code of Federal Regulations, Part
120.222, states that a lender may not require the borrower to pay any fees as a
condition of obtaining the loan, or charge a commitment, broker, commission,
referral or similar fee. Despite this restriction, Herndon Center personnel did not
challenge the lender's loan origination fee during the pre-purchase review and
honored the guaranty. When we brought this matter to their attention, they agreed
that this was an ineligible use of loan proceeds that it would address during a post­
purchase review.

When presented with a copy of our draft finding, stating that SBA did not
challenge the lender's lack of appropriate support for the use of proceeds for each
loan, a loan purchase review supervisor did not provide an explanation other than
to state that the loans may not have received a purchase review. However, as
mentioned previously, 7 of the 16 loans had been reviewed and purchased without
adequate proof of how the borrowers used the loan proceeds. A listing of the 16
loans is provided in Appendix III.

Projecting our sample results to the population, we estimate that 44 percent of the
103 purchased loans and $11.2 million in guarantees purchased by SBA as of
March 31 , 2007, were made without the appropriate documentation showing how
the borrower used the loan proceeds.

Regarding the other audit objectives concerning debt refinancing and equity
injection, we found that the lender complied with SBA' s qualification
requirements for debt refinancing, when appropriate, for the 35 loans. However,
we did not have a sufficient basis for assessing the lender' s compliance with

1
    Loan number [Exemption 2]
                                                                                                              4


equity injection requirements as only one loan in our sample required an equity
injection.
                        2
On May 8, 2007, we reported that, within the time period of our audit, the
Herndon Center had purchased guarantees without obtaining sufficient
information needed to assess whether lenders were in full compliance with SBA
requirements and prudent lending practices. One of the major deficiencies noted
in the report was that the Center was not ensuring that lenders had adequately
documented the borrowers' use of loan proceeds. We reported that lender
deficiencies were not detected due to the inexperience of purchase reviewers and
inadequate Center resources. Review deficiencies were also attributed to an
overly aggressive emphasis on expediting and increasing purchase production at
the Center.

In response to the May 2007 report, SBA agreed to develop a plan for improving
the quality of purchase reviews. However, SBA will need to take steps to remedy
problems we noted with UPSC loans.

RECOMMENDATIONS

We recommend that the Director, Office of Financial Assistance, take the
following actions to protect SBA's interests:

1. 	      Obtain the appropriate use of loan proceeds documentation for the 16 loans
          reviewed, or repair the guarantees for up to $4.3 million where appropriate
          documentation cannot be obtained.

2. 	      Repair by $17,000 the guaranty purchase amount for the loan proceeds that
          were used to pay the lender's loan origination fee.

3. 	      Establish a corrective action plan that requires the lender to demonstrate
          that it has implemented a process for ensuring that it has secured adequate
          documentation from borrowers to include, at a minimum, showing how
          loan proceeds have been used.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On February 12, 2008, we provided the Director, Office of Financial Assistance,
with a draft of this report for his review and comment. On March 14, 2008, he


2
    OIG Report o. 7-23 , Audit of the Guarantee Purchase Process for Section 7(A) Loans at the National Guaranty
    Purchase Center, issued May 8, 2007. OIG reports can be found on our website: www.sba.gov/ig.
                                                                                     5

provided formal written comments concurring with our recommendations, and
stated that actions are being taken to satisfactorily address the three report
recommendations. The full text of the comments can be found in Appendix IV of
this report. The actions planned by SBA are responsive to our recommendations.
His comments indicated that staff will be directed to re-review the 16 loans
discussed in the report to ensure that sufficient documentation and information
exists to sustain the purchase decisions. The Director further stated that with
respect to lender origination fees that were paid from loan proceeds, staff will
review the documentation to ensure the lender makes the appropriate restitution
for the $17,000. He will also advise all processing staff that this practice is
prohibited.

To address open purchase and liquidation issues, both SBA and UPS agreed to
designate specific personnel and resources to bring them to resolution. SBA has
assigned all of the lender' s backlogged loans requiring a post purchase review to
experienced personnel. SBA will also outline deficiencies found and insist that
action be taken by UPSC to educate its staff of the SOP requirements and SBA' s
expectations. Additionally, SBA will establish a screening/tracking method to
affirmatively ensure continued UPSC compliance and take immediate corrective
action should the Herndon Center encounter continued non-compliance.

The Director also commented that after Herndon Center staff noticed a pattern of
closing, servicing and liquidation issues on UPSC loans, UPSC was notified of
potential violations of SBA policy in September 2005 . He stated that UPSC had
misapplied liquidation proceeds that should have been applied to SBA guaranteed
loans to other non-guaranteed UPSC loans as well as reimbursing themselves for
non-SBA loan care and preservation of collateral expenses. UPSC was also found
to have sold notes and compromised debt without SBA approval over the years.
The Director further stated that these matters were brought to the attention of the
OIG. Shortly after the audit began, we found that both UPSC and Herndon Center
personnel had initiated actions to resolve the issues as well as their causes.
Therefore, we excluded these liquidation issues from our audit.

We appreciate the courtesies and cooperation of the Small Business
Administration representatives during this audit. If you have any questions
concerning this report, please call me at (202) 205-7203 or Robert Hultberg,
Director, Credit Programs Group, at (202) 205- [Exemption 2]
                                                    6

APPENDIX I. SAMPLE OF LOANS AUDITED 


      Sample
      Number                         Loan Number
         1                          [Exemption 2]
         2                          [Exemption 2]
         3                          [Exemption 2]
         4                          [Exemption 2]
         5                          [Exemption 2]
         6                          [Exemption 2]
         7                          [Exemption 2]
         8                          [Exemption 2]
         9                          [Exemption 2]

        10                          [Exemption 2]
        11                          [Exemption 2]
        12                          [Exemption 2]
        13                          [Exemption 2]
        14                          [Exemption 2]
        15                          [Exemption 2]
        16                          [Exemption 2]
        17                          [Exemption 2]
        18                          [Exemption 2]

        19                         [Exemption 2]
        20                         [Exemption 2]
        21                         [Exemption 2]

        22                         [Exemption 2]
        23                         [Exemption 2]
        24                         [Exemption 2]
        25                         [Exemption 2]
        26                         [Exemption 2]
        27                         [Exemption 2]
        28                         [Exemption 2]

        29                         [Exemption 2]

        30                         [Exemption 2]
        31                         [Exemption 2]
        32                         [Exemption 2]
        33                         [Exemption 2]

        34                         [Exemption 2]

        35                         [Exemption 2]

        36                         [Exemption 2]
* Loan fi le could not be located by SBA
                                                                                           7



APPENDIX II. STATISTICAL SAMPLING PROJECTION
The universe consisted of 103 loans purchased between October 1, 2003 , and
March 31 , 2007. From the population universe, we selected a statistical sample of
36 loans to determine whether UPS Capital Business Credit materially complied
with SBA' s lending policies and procedures. In statistical sampling, the projected
estimates in the population universe have a measurable precision or sampling
error. The precision is a measure of the expected difference between the value
found in the sample and the value of the same characteristics that would have been
found if a 100-percent review had been completed using the same techniques.

Sampling precision is indicated by ranges or confidence intervals that have upper
and lower limits. Estimating at a 90 percent confidence level means the chances
are 9 out of 10 that, if we reviewed all of the loans in the total population, the
resulting values would be between the lower and upper limits, with the population
point estimates being the likely amounts.

Using the Defense Contract Audit Agency' s "EZ Quant" software program, we
determined that a sample size of 36 loans was required based on the universe size,
a confidence level of90 percent and a 10 percent error rate. We used the "EZ
Quant" sample number generator to select the sample records from the universe.

We calculated the following population point estimates and the related lower and
upper confidence limits using the Defense Contract Audit Agency ' s "EZ Quant"
software program ' s ratio method at a 90 percent confidence level.

                               Occurrences in     Population Point
         Attribute            Sample of 36Ioans      Estimate          Lower Limit   Upper Limit
Use of Joan proceeds not
documented                           16                 44.4               33             57.4

                 Questioned        Projected        Precision
   Value          Amount            Amount          Amount           Lower Limit     Upper Limit
Use of loan
proceeds
not
documented       $4,334,850       $11 ,244,304     $3 ,385,955       $7,858,349      $ I 4,630,258
                                                                                                          8


APPENDIX III. LOANS WITHOUT FULL DOCUMENTATION OF
THE USE OF LOAN PROCEEDS

                                                                    Outstanding SBA Guaranty Balances
                                                                    On Loans With Undocumented Use
  Sample Number                      Loan Number                    Of Proceeds As Of March 31, 2007
           1                        [Exemption 2]                                            $121,796*
           3                        [Exemption 2]                                             $463 ,740
                   6                [Exemption 2]                                             $265,518
                   8                [Exemption 2]                                             $151 ,604
                   9                [Exemption 2]                                             $187,525
                  12                [Exemption 2]                                             $412,618
                  13                [Exemption 2]                                             $546,991
                  15                [Exemption 2]                                             $179,790
                  18                [Exemption 2]                                             $568,469
                  19                [Exemption 2]                                              $30,305
                  20                [Exemption 2]                                             $255,569
                  23                [Exemption 2]                                              $67,719
                  24                [Exemption 2]                                             $125,878
                  31                [Exemption 2]                                             $401,556
                  32                [Exemption 2]                                              $45 ,140
                  33                [Exemption 2]                                             $510,632
                                                 Total                                      $4,334,850
• The balance for this loan represents the amount charged off by SBA.
                                                                                              9


       APPENDIX IV. AGENCY COMMENTS


From: 	 Grady B. Hedgespeth
        Director, Office of Financial Assistance

TO: 	 Debra S. Ritt
      Assistant Inspector General for Auditing

Date: 	 March 14, 2008

Subject: OFA response to IG Draft Report on UPS Capital Business Credit's
(UPS) Compliance with Selected 7a Lending Requirements -Project 7023


NGPC UPSC BACKGROUND:

After the establishment of the The National Guaranty Purchase Center (NGPC), staff
began to notice a pattern of closing, servicing and liquidation issues on loans being
serviced by UPS Capital Business Credit (UPS). A memorandum dated September 7,
2005 was sent to UPS that specifically identified these deficiency issues and potential
violations of SBA policy and procedures. The issues included a variety of lender
preference concerns including a unique so-called "Waterfall theory /windfall theory"
method applied by UPS wherein UPS misapplied proceeds that should have been applied
to SBA guaranteed loans on a lien priority basis. In essence, any monies over and above
an arbitrary liquidation value were then shared with other non-SBA loans as a "windfall"
regardless of lien priority loan balance. UPS instead applied some of these liquidation
proceeds to non-guaranteed UPS loans as well as reimbursed themselves with SBA loan
proceeds on non-SBA loan CPC expenses. Our review also identified additional
practices and actions that UPS has implemented over the years regarding the sale of notes
and compromising the debt without SBA approval. We also brought these matters to the
attention ofthe Inspector General Office.

IG RESULTS and OFA CORRECTIVE ACTIONS

Of the 36loans sampled in this report, 16 (44%) have not yet had Post Purchase Review
so issues with regard to capital injection, use of proceeds, and other pertinent actions
have not yet been reviewed. Use of proceeds and other actions are reviewed during the
post purchase review, not prior to purchase from the secondary holder. Of the loans
having had Post Purchases Review, the report cited 7 loans where the use of proceeds
appeared to be undefined. Our resolution to this type of issue is to try to form a
conclusion from the information available. Where a lender cannot or does not provide
documentation behind a 1050, but we have access to acceptable alternative sources of
evidence such as an appraisal, accounting at liquidation, etc., we will use the alternative
                                                                                          10

information. This methodology was demonstrated in some of the 36 cases reviewed.
Although not specifically identified in the 1050, it was apparent that the lender had
followed the loan authorization, and by review of alternative sources, we concluded that
the lender complied with the loan authorization. However, in all cases cited for apparent
lack of substantiation of the use of proceeds, staff will be directed to re-review with
particular attention to satisfying that we have sufficient documentation and information to
sustain the purchase decision.

With regard to the lender charging and collecting a lender' s origination fee, we can offer
no reason why this was not caught and adjusted. We will review the documentation to
ensure the lender makes the appropriate restitution which would be either refunding
monies deducted from loan proceeds to SBA or crediting the borrower for any funds paid
by them outside the loan transaction. We will also advise all the processing staff that this
practice is prohibited.

It should be noted that completion of the PPR does not release the lender from any
subsequent repair or denial. In some cases, depending on the nature of the issue, harm to
the Agency can not be adequately determined at the time ofthe PPR since all liquidation
and collection efforts have not yet been completed by the lender. There still remains the
comprehensive charge off process and this was the process where we originally identified
the UPS deficiencies.

The IG report sampled loans made in the period October 2003 thru March 2007. The
NGPC was started in January 2004 and since opening has undergone many issues and
challenges both in personnel and operations. Some of the issues noted in this draft report
as well as early reports identified areas of review that needed to be augmented or
operationally enhanced. Partly as a result of these issues, as well as others, the NGPC
has recently rolled out new procedures and systems that make the entire review process
more visible, accountable, uniform, and effective. Coupled with a change in operating
organization, increase in personnel, intensive training, and other efforts, we expect that
the end product will produce the appropriate level of uniform and effective review
desired.

As to UPS specifically, our overall UPS strategy includes a continuing dialogue and
resolution on a case by case basis with UPS of all remaining backlogged purchase
reviews and charge-off reviews. Both NGPC and UPS agreed to designate specific
personnel and resources to address existing issues and bring them to resolution and to
continue to coordinate corrective efforts to alleviate future problems. In conjunction
with that philosophy, UPS management has indicated that effective with SBA' s
September 7, 2005 Memorandum, that UPS would cease and desist the so called
"waterfall practice" of the Waterfall theory. A Senior Vice President and Compliance
Officer was assigned by UPSC to the task of moving the remaining issues and cases to
resolution. All backlogged UPS PPR loan reviews as well as charge-off reviews have
been assigned to a senior and very experienced NGPC team for continuity and expertise.
                                                                                      11

                    OFA Action Plan as to IG Recommendations:


IG Recommendation #1: Obtain the appropriate use ofloan proceeds documentation
for the 16 loans reviewed, or repair the guarantees for up to $4.3 million where
appropriate documentation cannot be obtained.

OFA Action Plan: In all cases cited for apparent lack of substantiation of the use of
proceeds, staff will be directed to re-review with particular attention to satisfying
that we have sufficient documentation and information to sustain the purchase
decision.

IG Recommendation #2: Repair by $1 7, 000 the guaranty purchase amount for the loan
proceeds that were used to pay the lender 's origination fee .

OFA Action Plan: We will review the documentation to ensure the lender makes
the appropriate restitution which would be either refunding monies deducted from
loan proceeds to SBA or crediting the borrower for any funds paid by them outside
the loan transaction. We will also advise all the NGPC and UPS processing staff that
this practice is prohibited.

IG Recommendation #3: Establish a corrective action plan that requires the lender to
demonstrate that it has implemented a process for ensuring that it has secured adequate
documentation from borrowers to include, at a minimum, showing how loan proceeds
were used.

OFA Action Plan: As NGPC staff works with UPS to resolve open purchase issues,
we will outline deficiencies found to lender and insist that action be taken by UPS to
educate its staff of the SOP requirements and SBA expectations. This same
attention and scrutiny will be applied to those open liquidation cases to ensure that
this requirement was met at time of purchase. We will also acquaint the NGPC staff
of the results of this report and establish a screening/tracking method to
affirmatively insure continued UPS compliance and take immediate corrective
action should NGPC encounter continued non-compliance.
